NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



        AUDIT MEMORANDUM: ANALYSIS OF
      REGION V 5300 CALL REPORT REFERRAL

                  Report #OIG-05-01
                   January 10, 2005




                William A. DeSarno
              Acting Inspector General


                    Prepared by:



               Tammy F. Rapp, CPA, CISA
          Sr. Information Technology Auditor
TO:          J. Leonard Skiles
             Executive Director

FROM:        William A. DeSarno
             Acting Inspector General

DATE:        January 10, 2005

SUBJECT: OIG Analysis of Call Report Referral
         Report #OIG-05-01

NCUA’s Region V Director requested that the OIG look into a matter involving a specific
5300 call report. Specifically, Region V was concerned about 5300 edit checks that
may have been overridden by an examiner and whether this might have occurred with
other call reports. Region V provided us with a report prepared by the Office of
Examination and Insurance (E&I) regarding this particular call report which stated that
the “examiner circumvented established controls and uploaded incorrect data.”

OBJECTIVE

The objective of our work was to determine whether a preventive control in the 5300 call
report upload process was circumvented and if this represents a systemic problem.

SCOPE AND METHODOLOGY

The scope of our work was limited to an isolated incident of a 5300 call report uploaded
for one credit union located in Region V.

We interviewed the examiner who uploaded the subject call report, as well as staff from
the E&I and Office of the Chief Information Officer (OCIO). We reviewed historical
documentation relating to the incident including March and June 2004, 5300 data for
this particular credit union. We reviewed the security plan and other documentation
prepared by E&I and OCIO relating to this incident.

We also performed limited testing of the 5300EX application. Specifically, we tested
whether the data could be modified outside of the application. We did not attempt to
perform any transmission or uploads of the data to the server. We also did not
determine the accuracy of the data presented in the March or June call reports.




                                           1
Due to the limited scope of this project, we did not follow Yellow Book audit standards.
Accordingly, our suggestions are not covered by NCUA’s Audit Follow-up Instruction
1910.6.
                            1
5300 BACKGROUND

Credit unions deliver the financial data to the examiner using one of several methods
including a paper form physically delivered or faxed, verbal collection over the
telephone, on-site collection, or electronic delivery via diskette or internet. Beyond the
delivery format, NCUA has no control over the program used by the credit union to
generate the data file. NCUA provides the agency developed 5300 Credit Union
software program, for credit union use; however, the credit union is not obligated to use
the program. The 5300 program provides credit union officials the ability to produce a
file containing financial data. Credit unions transmit the file to the examiner either on a
diskette or on-line through an NCUA server.

The examiner has an expanded version of the 5300 installed on the standard NCUA
notebook computer. This version allows the examiner to load the data file provided by
the credit union. This version also allows the examiner to upload verified data to the
production SQL database.

The 5300 Call Report software contains edits that either stop the transmission or warn
the user of potential erroneous data. Additional edits on the processing server recheck
the data integrity upon receipt.

OBSERVATIONS

Our review of historical documentation shows the examiner attempted to upload at least
five call reports for one credit union during the June 2004, call report cycle. Our review
of the documentation and interviews of key staff also indicated that all but two of these
uploads were rejected by the server. The first call report accepted by the server on July
25, 2004, appeared to represent March 2004, data with some adjustments. Although
the file did not accurately reflect June 2004, data, it was in the correct format and
appeared reasonable. The last call report accepted by the server on July 30, 2004,
represented the credit union’s June 2004, data.

We interviewed the examiner and learned that approximately 40 percent of her credit
unions did not receive their 5300 package for the June 2004, cycle. The examiner
advised the credit union that is the subject of this report to use its prior cycle software to
input the data and then transmit the file. The examiner attempted to upload this data.
However, the server rejected it since it had the wrong date. The examiner then opened
the data file using notepad and changed the month from 03 to 06, saved the file, and
imported this file into 5300EX. The data file did not have any warnings and passed all
the edit checks. However, the server again rejected this file because it was in the short
format. The short form is optional only during the March and September cycles for
1
    Source: NCUA Call Report System Security Plan, June 2, 2004


                                                  2
credit unions with total assets less than $10,000,000. The examiner finally waited for the
credit union to receive the June 2004, 5300 package and complete the proper form
which was then transmitted successfully on July 30, 2004.

ANALYSIS & CONCLUSION

Controls were effective and prevented 5300 data from being accepted by the server that
was in an unacceptable format. Although there were multiple attempts to upload 5300
data, the server rejected all but two. Although the data was an estimate, the first
successful upload represented data in the correct format. The second upload that was
accepted by the server represented actual data in the correct format. In addition to the
server rejecting data in an unacceptable format, additional controls notified OCIO that
there was a problem with this credit union’s 5300 call report transmission by their
examiner.

We learned that there is a well known back door to modifying data before uploading to
the server. Examiners have the ability and sometimes use notepad to open the 5300
xml file to modify data prior to uploading.

SUGGESTION

The OIG suggests that E&I consider whether data modified outside of the 5300 program
poses a material risk to 5300 data integrity. If E&I determines the risk is significant, they
should work with OCIO to determine the best solution for preserving data integrity and
preventing modification outside of the program.




Distribution:
       Board Chairman, JoAnn M. Johnson
       Board Member, Deborah Matz
       Deputy Executive Director, J. Owen Cole, Jr.
       Director, Office of Examination &Insurance, David M. Marquis
       Director, Region V, Melinda Love
       Chief Information Officer, Doug Verner




                                             3
